HHS/OIG-Audit--"Nationwide Review of Health and Safety Standards at Child Care Facilities, (A-04-94-00071)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Nationwide Review of Health and Safety Standards at Child Care Facilities," (A-04-94-00071)
December 19, 1994
Complete
Text of Report is available in PDF format (3 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes results of audits in five States of child care health and safety standards and points out
that greater Federal oversight is needed to improve the health and safety conditions of the Nation's child care programs.
Our unannounced visits to 169 child care facilities identified deficiencies such as; fire code violations (94 instances),
toxic chemical hazards (84 instances), playground hazards (134 instances), unsanitary conditions (394 instances), problems
with employee records (236 instances), problems with children's records (191 instances) and other facility hazards (499
instances). In addition to improvements needed at the State level, the report recommends actions the Administration for
Children and Families (ACF) can take to improve the health and safety of children in federally-funded child care programs.
The ACF generally concurred with our recommendations.